OFFICE OF INSPECTOR GENERAL



AUDIT OF DATA QUALITY FOR
USAID/WEST AFRICA’S
REGIONAL HEALTH PROGRAM
AUDIT REPORT NO. 7-624-08-005-P
April 21, 2008




DAKAR, SENEGAL
     Office of Inspector General


                                                                                   April 21, 2008


     MEMORANDUM

     TO:                  USAID/West Africa Director, Henderson Patrick

     FROM:                Acting Regional Inspector General/Dakar, Abdoulaye Gueye /s/

     SUBJECT:             Audit of Data Quality for USAID/West Africa’s Regional Health Program

     This memorandum accompanies our final report on the subject audit. In finalizing this
     report, we considered management’s comments on our draft report and included them in
     appendix II.

     This report contains one recommendation with which you concurred in your response to
     the draft report. Based on the actions taken by the mission, management decision on the
     recommendation has been reached, and final action to close the recommendation
     should be coordinated with the Audit, Performance and Compliance Division
     (M/CFO/APC).

     I appreciate the cooperation and courtesies extended to the members of our audit team
     during this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


     Mission Needs to Verify Reported
     Information ................................................................................................................ 6 


Evaluation of Management Comments ......................................................................... 8 


Appendix I – Scope and Methodology .......................................................................... 9 


Appendix II – Management Comments ....................................................................... 11 

SUMMARY OF RESULTS

West African countries are plagued with some of the worst health statistics in the world.
They share common public health challenges, including high fertility and mortality rates
and increasing human immunodeficiency virus/acquired immune deficiency syndrome
(HIV/AIDS) prevalence rates. Governments in the region respond to these challenges
through their national health programs. In 2003, USAID/West Africa launched a 5-year
health program, Action for the West Africa Region (AWARE), to provide assistance to 15
countries of the Economic Community of West African States, as well as Cameroon,
Chad, Mauritania and São Tomé and Príncipe. The goals of the Program are to promote
a healthier and more productive population, and enhance the efficiency of national health
systems through four key objectives: (1) sharing and supporting of promising best
practices in family planning, reproductive health, sexually transmitted infection (STI) and
HIV/AIDS management, and child survival services; (2) strengthening regional health
institutions and networks; (3) promoting policy improvement and creating and enabling
policy environments; and (4) increasing the efficiency of national health systems. To
meet these objectives, the mission worked with two consortia led by Family Health
International (FHI) and EngenderHealth. These two partners reported on indicators that
tracked progress on the adoption of sustainable family planning/reproductive health,
sexually transmitted infection/HIV/AIDS management, and child survival policies and
approaches in West Africa, and on elements of the President’s Emergency Plan For AIDS
Relief (see page 3).

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit to answer the
following question (see page 4):

       Did USAID/West Africa confirm that the information reported by its regional health
       program’s implementing partners could be relied upon to make sound
       management decisions?

USAID/West Africa did not confirm that the information reported by its regional health
program’s implementing partners could be relied upon to make sound management
decisions. The mission’s health program team did not systematically confirm the
reliability and accuracy of the information reported by verifying or cross-checking the
reported data against the partners’ supporting documentation. In addition, the audit
testing revealed significant discrepancies between the results reported by the partners
and the supporting documentation for 5 of 33 indicators reviewed (see page 5).

Although we found discrepancies between the results reported and the supporting
documentation for 5 of 33 indicators, this audit noted that the USAID/West Africa’s
regional health program team and the implementing partners had thorough knowledge of
and provided sufficient oversight of program activities. The implementing partners
conducted and documented regular site visits, provided technical assistance, and
maintained documentation of their communication with USAID and recipients.
Further, the mission team reviewed the information reported by the implementing
partners and assessed whether partners were meeting planned targets and whether the
data reported were reasonable. RIG/Dakar’s review of 33 indicators results showed that
the mission generally achieved planned activities. The audit team also noted that
USAID/West Africa had improved the operation of subpartners of the program. One


                                                                                         1
subpartner conveyed its satisfaction and attributed part of its achievements to the help
received from the program (see page 5).

This report recommends that USAID/West Africa develop specific procedures to require
that its regional health program team document the cross-checking and verification of
reported data used to make management decisions, and maintain supporting
documentation of the team’s verification of reported results (see page 7).

The mission’s comments in their entirety are presented in appendix II.




                                                                                      2
BACKGROUND

West African countries are highly diverse in terms of language, population, size, culture,
politics, and economics. However, they share common public health challenges, such as
high fertility and mortality rates and rapidly increasing human immunodeficiency
virus/acquired immune deficiency syndrome (HIV/AIDS) prevalence rates that are
exacerbated by conflict and poverty. They are also plagued with some of the worst overall
health statistics in the world. Many of the problems know no borders. Governments in the
region continue to respond with varying degrees of success to these challenges, primarily
through their national health programs. USAID/West Africa supports their efforts by
providing assistance to 19 countries in the region covered by the mission, with
substantial assistance focused on 12 countries where USAID does not have an office
in-country. Recent efforts to forge an economic and political union through the Economic
Community of West African States have led regional experts to note the need for a
coordinated regional health initiative to complement national programs and to share
experiences across the region.

The issues affecting the health status of the region include specific disease areas coupled
with crosscutting human resources and institutional problems. To mitigate these
problems, in 2003, USAID/West Africa launched the Action for the West Africa Region
(AWARE), a 5-year health program with $71 million in financing. The main goal of the
program is to promote a healthier and more productive population through coordinated
interventions that reinforce and enhance the efficiency of national health systems, which
will remain the main avenue for addressing most health problems. The two major
components of the program are HIV/AIDS and reproductive health.

Unlike bilateral programs, the regional program does not provide direct health services to
clients, except in limited demonstration sites. Rather, the program seeks to achieve its
goal through four key objectives:

   •	 Sharing and supporting promising best practices in family planning, reproductive
      health, sexually transmitted infections/HIV/AIDS management and child survival
      services
   •	 Strengthening regional health institutions and networks
   •	 Promoting policy improvement and creating and enabling policy environments
   •	 Increasing the efficiency of national health systems

To meet these objectives, the mission worked with two consortia led by Family Health
International (FHI) and EngenderHealth. These two partners reported on indicators that
tracked progress on the adoption of sustainable family planning/reproductive health,
sexually transmitted infection/HIV/AIDS management, and child survival policies and
approaches in West Africa, and on USAID’s operational plan indicators oriented on the
President Emergency Plan For AIDS Relief as described in the mission’s performance
management plan and the partner’s annual reports.

FHI, a U.S-based organization, provided support in the area of HIV/AIDS and sexually



                                                                                         3
transmitted diseases, on capacity development, system strengthening, and building
partnerships. Specifically, FHI (1) demonstrated best approaches for targeted, regional,
and cross-border programming in behavior change communication, social marketing,
voluntary counseling and testing, care and support, sexually transmitted infections
management, and prevention of mother-to-child transmission services; (2) built the
capacity of regional institutions and systems; and (3) increased available resources for
effective HIV/AIDS programming in crosscutting areas such as advocacy, monitoring and
evaluation, private sector participation, gender equity, and stigma reduction.

EngenderHealth is a U.S.-based organization that provided technical assistance and
training in support of family planning, reproductive health, and child survival. It sought to
improve the quality and accessibility of sexual and reproductive health care through
sharing best practices and harmonizing its approach with the HIV/AIDS component.
EngenderHealth also worked to strengthen sentinel surveillance systems embarked on
operations-related research to increase the value of the health data used by decision
makers, and trained decision makers on the use of the data. It also supported
immunization programs.

The AWARE partners received $8.2 million of the $9.8 million of USAID/West Africa
funding that was obligated in fiscal year 2007.

AUDIT OBJECTIVE
As part of the Office of Inspector General’s Fiscal Year 2007 Annual Plan, the Regional
Inspector General/Dakar conducted this audit to answer the following question:

       Did USAID/West Africa confirm that the information reported by its regional health
       program’s implementing partners could be relied upon to make sound
       management decisions?


Appendix I contains a discussion of the scope and methodology of the audit.




                                                                                           4
AUDIT FINDINGS

USAID/West Africa did not confirm that the information reported by its regional health
program’s implementing partners could be relied upon to make sound management
decisions.

The USAID/West Africa health program team did not systematically confirm the reliability
and accuracy of the information reported by verifying or cross-checking the reported data
against the partners’ supporting documentation. There were significant discrepancies for
5 of 33 indicators reviewed by the audit team.

In spite of the lack of data verification and the discrepancies noted, the audit found that
overall the data fairly represented the progress of the activities. The data collection
process was reasonably consistent, and the inaccuracies noted were due mostly to
computational errors. The audit further noted that the regional health program team and
the implementing partners had thorough knowledge of and provided sufficient oversight of
program activities. The health team maintained ongoing communication with the
implementing partners. For instance, cognizant technical officers (CTOs) made regular
visits to the implementing partners’ offices to discuss program implementation. They
reviewed the information reported by the implementing partners and assessed whether
partners were meeting planned targets and whether the data reported were reasonable.

With the introduction of the Country Operational Plan (OP)1, USAID/West Africa was
required to report on OP indicators in addition to the performance management plan
(PMP) indicators used to manage the regional health program. A review of 33 indicators’
results showed that the implementing partners generally achieved planned activities, and
as a result the program has had a positive impact on the target beneficiaries. This impact
includes results related to the number of countries participating in cross-border integrated
family planning/reproductive health and sexually transmitted infections/HIV/AIDS
interventions; the number of local organizations provided with technical assistance for
HIV-related policy development; and the number of health workers newly trained or
retrained in the provision of prevention of mother-to-child transmission services reported
by Family Health International (FHI). Also, in fiscal year 2007, EngenderHealth reported
43 verified Action for West Africa Region (AWARE)-supported applications of selected
promising and best practices in family planning/reproductive health and sexually
transmitted infections/HIV/AIDS management in the West Africa region, exceeding its
target.

Although they were not part of the audit, several subpartners stated that they received
numerous benefits from participating in the AWARE program. For example, one
subpartner conveyed its satisfaction and attributed part of its achievements to the help
received from the program. AWARE projects developed and sponsored a client-oriented,
provider-efficient services training for partners’ and subpartners’ staff. Subpartners’ staff
testified that this training changed their way of thinking—simple decisions that formerly

1
  The purpose of the Operational Plan is to provide a comprehensive, interagency picture of how
foreign assistance resources received by an Operating Unit will be used to support the foreign
assistance objectives and the Transformational Diplomacy goal. In effect the OP replaced the
annual report.


                                                                                                  5
had to be made by an administrator can now be made by staff. Also, the clients-staff
relationship has substantially improved, as staff members have become more aware of
clients’ rights and are more sensitive to clients’ needs.

Although the mission and its partners made significant efforts in the implementation of the
regional health program activities, the audit noted a weakness. The mission did not verify
or cross-check the documentation maintained by the implementing partners to support its
reported data for accuracy. This issue is discussed in detail below.

Mission Needs to Verify
Reported Information

 Summary: The regional health program team at USAID/West Africa did not verify or
 cross-check the documentation maintained by the implementing partners to support the
 data they reported in fiscal year 2007. In 5 of 33 results reviewed (15 percent), partners
 reported inaccurate or unsupported information on actual results. According to several
 USAID guidelines, performance data should be verified for accuracy and reliability, and
 missions should take steps to ensure that submitted data are adequately supported.
 Verification was lacking because the CTOs did not realize the extent to which partner
 data should be verified, and also because they relied on the implementing partners to
 verify data. As a result, the mission increased its vulnerability to using inaccurate or
 unsupported data to make management decisions.


The audit team did not find evidence that USAID/West Africa verified the reliability and
accuracy of the information reported by its implementing partners. Furthermore, the audit
team found that the implementing partners did not always verify the accuracy and
reliability of the data reported by their subpartners.

Based on the review of 33 indicators listed in USAID/West Africa’s PMP and operational
plan, discrepancies were found between the results reported by the partners and the
supporting documentation for 5 of 33 indicators:

   •	 EngenderHealth reported that 300 people were trained in family planning and
      reproductive health services with U.S. Government funds. The CTO could not
      provide documentation to support this result. The supporting documentation at
      the implementing partner office indicated that 188 people were trained.
      USAID/West Africa adjusted the data it reported to Washington in fiscal year 2007
      to reflect the correct figure.

   •	 FHI and EngenderHealth were not using the same denominator in their calculation
      of person-weeks of technical assistance provided. EngenderHealth used a 5-day
      week as denominator while FHI used a 6-day week. Furthermore, FHI and
      EngenderHealth reported 142 and 224.8 person-weeks of technical assistance,
      respectively, in their annual reports. The mission was planning to report the
      composite number of 366.8 to Washington. The audit team verified the data
      reported by FHI and found no exception. However, verification of the data
      reported by EngenderHealth revealed math errors and missing information that
      could have resulted in overreported data. The mission revised the data originally



                                                                                         6
       reported by the implementing partners to reflect the corrected figure of 225
       person-weeks, which was ultimately reported to Washington in fiscal year 2007.

    •	 FHI reported 12 newly adopted policies at regional and national levels in family
       planning reproductive health and sexually transmitted infections/HIV/AIDS
       management. However, the supporting documentation indicated only eight newly
       adopted policies.

    •	 FHI reported 146 of individuals trained in counseling and testing; supporting
       documentation indicated that 176 individuals were actually trained.

According to Automated Directives System (ADS) 203.3.5.1 and USAID TIPS 12
Analyzing Performance Data (supplemental guidance referenced by the ADS),
performance data should be accurate and reliable, and missions should take steps to
ensure that submitted data are adequately supported. The USAID Cognizant Technical
Officers Guidebook on USAID Acquisition and Assistance states that CTOs are
responsible for ensuring the accuracy of all reports submitted by their contractors and that
in order for CTOs to assess the accuracy of reported results, implementers should
maintain records of reported data. According to TIPS 12 (supplementary guidance
referred to by USAID’s ADS)2, CTOs are charged with ensuring that data reported by
implementing partners are accurate. Accordingly, CTOs are required to perform data
verification procedures. TIPS 12 also emphasizes the importance of documentation,
stating that proper documentation helps maintain the quality of performance indicators
and data. Such documentation should provide an opportunity for independent checks
concerning the quality of the performance measurement system. TIPS 12 also indicates
that while some errors in collecting data on social and economic change are to be
expected, transcription errors and other discrepancies can be easily avoided by careful
cross-checking of data against the original source.

According to the current CTOs, the lack of documentation and data verification occurred
because they did not realize the extent to which partner data should be verified and
documented and because they relied on the implementing partners to verify the data they
reported. Because it did not verify and cross-check data reported by its implementing
partners and did not maintain sufficient supporting documentation, USAID/West Africa
increased its vulnerability to using inaccurate or unsupported data. Inaccurate or
unsupported information on program accomplishments could lead decision makers to
erroneous conclusions about program results. To address this weakness, this audit
makes the following recommendation.

    Recommendation 1: We recommend that USAID/West Africa develop specific
    procedures to require that the regional health program team document the cross-
    checking and verification of reported data used to make management decisions,
    and maintain support of their verification of reported results.




2
  The TIPS are guidelines, advice and suggestions to USAID managers directing them on how to
plan and conduct performance monitoring and evaluation activities effectively.


                                                                                               7
EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Africa agreed with the finding and the recommendation in the draft audit
report. Based on the action taken by the mission, the Regional Inspector General/Dakar
considers that management decision has been reached. However, the recommendation
remains open, and final action to close the recommendation should be coordinated with
the Audit, Performance and Compliance Division (M/CFO/APC) in the Office of the Chief
Financial Officer.

In response to the recommendation, USAID/West Africa developed a data quality
assessment checklist and guidelines for mission staff to use during field visits and the
evaluation of health program activities, including verifying portion of results data, and
cross-checking data on partners’ report to support documentation. Also, the mission is
planning to contract the services of a monitoring and evaluation advisor to update the
health program performance management plan indicators and definitions for standard
data handling and calculation by partners.




                                                                                       8
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit in accordance
with generally accepted Government auditing standards. As part of its fiscal year 2007
audit plan, RIG/Dakar designed this audit to determine whether USAID/West Africa
confirmed that the information reported by its regional health program’s implementing
partners could be relied upon to make sound management decisions. The audit scope
covered fiscal year 2007 health activities.

In planning and performing the audit, we assessed the effectiveness of USAID/West
Africa’s internal controls that could materially impact the audit objective.           The
management controls identified included the mission’s annual self-assessment of
management controls through its annual Federal Managers’ Financial Integrity Act
report, performance management plans, the mission’s operational plan, cognizant
technical officers’ field visits, reviews of progress reports, and regular contact with the
partners. The audit team also assessed USAID/West Africa’s process for monitoring its
partners’ activities and reporting, as well as USAID/West Africa partners’ process for
validating and verifying data reported to the mission.

RIG/Dakar performed the fieldwork at USAID/West Africa and the offices of
EngenderHealth and Family Health International in Accra, Ghana from October 22
through 30, and from November 5 to 9, 2007. In addition, fieldwork was conducted at the
offices of two subpartners in three cities in Cameroon from November 1 to 4, 2007.
Fieldwork was also conducted in Dakar, Senegal, as USAID/West Africa continued to
submit significant additional information until November 16, 2007.

The implementation of the Action for the West Africa Region (AWARE) program is led by
two managing partners and is composed of a network of five additional associate
partners and various3 subpartners to carry out activities in 19 countries. We visited 1 of
19 countries where the regional health program activities were implemented. The two
partners we visited in Cameroon were Cameroon Baptist Convention Health Board and
Association Camerounaise de Marketing Social. The mission also managed activities of
two other implementing partners, Helen Keller International and John Snow
International, in a limited capacity.

During the audit period, USAID/West Africa obligated $9.8 million for its regional health
program. The two consortia under the AWARE program accounted for $8.2 million out of
the obligated amount, representing about 83 percent of the total obligated funds in fiscal
year 2007.

Methodology
To answer the audit objective, the audit team interviewed USAID/West Africa’s officials
and reviewed the mission’s Performance Management Plan, draft Mission Order, and
3
 EngenderHealth has 12 subpartners, and FHI has 19 subagreements, 8 MOUs, and 36 grants
with various governments and organizations.


                                                                                          9
                                                                              APPENDIX I 



performance results reporting. The audit team also interviewed the consortia’s lead
partners’ officials and reviewed their work plans, progress reports, and supporting
documentation files. The audit team further reviewed trip reports, CTO files, and
partners’ annual reports to verify the reliability and accuracy of the data reported by
implementing partners. The audit team also conducted three site visits in Cameroon in
the districts of Douala, Yaoundé, and Mutengene to observe operations and confirm
data reliability.

The audit team verified the reliability of the project indicator results by reviewing source
documentation for 16 operational plan indicators as well as 17 PMP indicators at the
leading partners’ offices. The implementing partners reported results for 34
indicators included in the mission’s performance management plan and
operational plan; however, the audit team reviewed only 33 of the 34 indicators.
The audit team also conducted a limited review of the subcontractors’ supporting
documentation.

To determine if USAID/West Africa confirmed that management could rely on the
information reported by its implementing partners to make sound management
decisions, we assessed whether CTOs were verifying or cross-checking data reported
by the partners. In answering the audit objective, if the mission reviewed and maintained
documentation to support the results achieved for at least 90 percent of the indicators
reviewed, then we considered that the mission confirmed the reported information




                                                                                         10
                                                                               APPENDIX II 





MANAGEMENT COMMENTS




USAID/West Africa Management Response to RIG Data Quality Assessment (DQA)
Audit Findings:

USAID/West Africa has reviewed the draft report of the RIG audit team concerning data
quality assessments (DQAs) and regular verification of reported partner achievements.
The Mission first wishes to thank the RIG for the assistance in identifying areas for
improving the management of the regional program and measuring impact from regional
activities.

The primary objective of the audit was to determine whether USAID/WA could confirm
that the information reported by its regional health program’s implementing partners
could be relied upon to make sound management decisions. The RIG Audit Team made
the following recommendation:

Recommendation 1:       We recommend that USAID/WA develop specific
procedures to require that the regional health program team document the
cross-checking and verification of reported data used to make management
decisions, and maintain support of their verification of reported results.

USAID/West Africa agrees with this recommendation, and has already begun the
following corrective actions to enable the USAID/WA to more closely and directly verify
the data reported by the health program’s implementing partners.

   1. 	 The Health Team has developed a simple DQA checklist for Mission staff to use
        on all TDYs to countries where we have health program activities. This is helping
        to take advantage of all contacts with field activities to verify portions of results
        data. It is not possible to conduct thorough DQA verifications during all field
        visits, but this tool is adding to our ability to verify partner data since November
        2007.
   2. 	 The Health Team has planned more frequent travel to directly monitor project
        field activities, particularly those contributing to quantified PMP indicators. This
        will also include adding an extra day to every conference or meeting TDY in
        countries where we have program activities where feasible, to give time to visit
        activity sites and go through the DQA checklist.
   3. 	 In addition, the Mission Health Team is working to better organize electronic and
        paper files for CTO monitoring and ensure that regular reviews are better
        documented.


                                                                                           11

                                                                             APPENDIX II 



   4. 	 The Mission is in process of contracting the services of a Monitoring and
        Evaluation Advisor for the Health Team to assist in updating the health program
        PMP indicators and definitions for standard data handling and calculations by
        partners. The new PMP, including formal submission of more relevant custom
        indicators for the OP process, will more closely match the USG health policy
        goals in the region, and the objective of promoting more effective “best practices”
        to improve health services with expertise from within the region.

We anticipate completing this recommendation by July 2008.




                                                                                        12
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
